No. 20-1545
IN THE

Supreme Court of the United States
————
TCL COMMUNICATION TECHNOLOGY HOLDINGS, LIMITED,
TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
v.

Petitioners,

GODO KAISHA IP BRIDGE 1,
Respondent.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
REPLY BRIEF FOR PETITIONERS
————
LIONEL M. LAVENUE
Counsel of Record
FINNEGAN, HENDERSON, FARABOW,
GARRETT & DUNNER, LLP
1875 Explorer Street
Suite 800
Reston, VA 20190
(571) 203-2750
Lionel.lavenue@finnegan.com
Counsel for Petitioners
June 18, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTRODUCTION ................................................

1

A.

This Case Squarely Presents a Scenario
Where the Jury Impermissibly Performed Claim Construction in Violation
of Markman ...............................................

3

The Reasoning in Markman Applies with
Equal Force to this Case and Justifies
Overturning the Federal Circuit’s Error .

6

The Conflict Between the Federal
Circuit’s Decision and Supreme Court
Precedent Should Be Resolved by this
Court..........................................................

8

CONCLUSION ....................................................

11

B.

C.

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Bischoff v. Wethered,
76 U.S. 812 (1870) .....................................

6

Cybor Corp. v. FAS Techs., Inc.,
138 F.3d 1448 (Fed. Cir. 1998) .................

8

Dynacore Holdings Corp. v. U.S. Philips
Corp., 363 F.3d 1263 (Fed. Cir. 2004) ...... 9, 10
Fujitsu Ltd. v. Netgear, Inc.,
620 F.3d 1321 (Fed. Cir. 2010) .................

8, 9

Markman v. Westview Instruments, Inc.,
517 U.S. 370 (1996) ..................................passim
Texas Instruments, Inc. v. U.S. Int’l Trade
Comm’n,
805 F.2d 1558 (Fed. Cir. 1986) .................

3

IN THE

Supreme Court of the United States
————
No. 20-1545
————
TCL COMMUNICATION TECHNOLOGY HOLDINGS, LIMITED,
TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Petitioners,
v.
GODO KAISHA IP BRIDGE 1,
Respondent.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
REPLY BRIEF FOR PETITIONERS
————
INTRODUCTION
The Federal Circuit’s decision violates the Supreme
Court’s precedent in Markman, which requires the
district court to decide claim construction issues,
not the jury. Respondent argues that no violation of
Markman occurred because it presented evidence
(primarily in the form of expert testimony) showing
that its patents were essential to the LTE standard
and that the accused products complied with that

2
standard. Respondent contends that, for standardessential patent cases, it is permitted to present its
case in this way. It is not. This Court has never
permitted a party to prove patent infringement solely
by showing through expert testimony that a patent is
essential to a standard and that the accused product
complies with that standard. Indeed, such an analysis
results in the jury—not the judge—construing patent
claims, which is a plain violation of Markman.
At bottom, Respondent’s argument allows the jury,
through the guidance of an expert witness, to conclude
that the patent claims are coextensive with an
industry standard. But the court—not the jury—must
determine if the industry standard is coextensive with
the patent claims because this issue involves claim
construction and is thus squarely within the province
of the court. The same policies that this Court relied
on when assigning claim construction duties to the
district court judge in Markman apply here. For
example, in Markman, this Court explained that
issues involving document interpretation or interpretation of technical terms (e.g., construing patent
claims or a contract) are within the purview of judges,
while issues involving “product identification” and the
ultimate issue of patent infringement are best left for
juries. The Markman Court explained that it reached
this conclusion because judges are better suited than
juries to determine the construction of written instruments and technical terms, and because allowing
judges to construe patent terms provides more
uniformity than if terms were construed by the jury
(since a single patent can be asserted against several
different competitors).
Determining whether patent claims are encompassed within an industry standard necessarily

3
involves analyzing a contract (e.g., a patent) and
interpreting technical terms (in both the patent and
the standard). Such an analysis—by its very nature—
is the same type of analysis that this Court committed
to district court discretion in Markman. If juries
are allowed to perform this analysis, the uniformity
described above will be compromised, and there will
be a severe risk that a jury’s lack of expertise with
interpreting legal and technical terms will result in
scenarios where patent claims are found coextensive
with a standard when they are not and vice versa.
These concerns are magnified by the fact that there
are tens of thousands of patents alleged to be standard
essential. For these reasons, not only was Markman
violated, but this violation was significant. Accordingly, TCL’s petition for certiorari should be granted.
A. This Case Squarely Presents a Scenario
Where the Jury Impermissibly Performed
Claim Construction in Violation of
Markman
Proving literal infringement at trial requires the
patentee to compare the accused product to the elements of the claim. Markman v. Westview Instruments, Inc., 517 U.S. 370, 374 (1996). There can only
be literal infringement if the accused product practices
every element in the patent claim. Texas Instruments,
Inc. v. U.S. Int’l Trade Comm’n, 805 F.2d 1558, 1562
(Fed. Cir. 1986). Here, Respondent sought to satisfy
this legal requirement by using the LTE standard as a
go-between. That is, the Respondent argued that
the asserted patents are coextensive with the LTE
standard, and that there is infringement because
the accused products practice that LTE standard.
It is undisputed that the Federal Circuit allowed
Respondent to present its case this way, that the LTE

4
standard is necessary to Respondent’s infringement
theory, and that the accused TCL products practice
the LTE standard. The dispute here involves the
first part of Respondent’s infringement theory—i.e.,
whether the claims in the asserted patents are
coextensive with the LTE standard. Performing this
analysis necessarily involves construing the scope of
the patent claims and determining whether they
are encompassed by the industry standard. This is—
by definition—a claim construction analysis, which
means the district court must conduct it (not the jury).
There is no dispute that, in this case, the determination that the asserted patents were coextensive with
the industry standard was made by the jury and not
the court. Thus, the district court and Federal Circuit
bypassed Markman’s requirement that “the construction of a patent, including terms of art within its claim,
is exclusively within the province of the court.”
Markman, 517 U.S. at 372. Getting claim construction
correct is essential because the scope of the patent
claim defines for the patentee “all to which he is
entitled” while “appris[ing] the public of what is still
open to them.” Id. at 373 (citation and quotations
omitted).
Respondent acknowledges that this case involves
standard essentiality but argues there was no
Markman violation because the Federal Circuit
blessed the two-step process it purports to apply here.
But two wrongs do not make a right. Respondent
cannot avoid the simple, yet highly material fact that
the district court never determined whether the
asserted claims covered each possible implementation
of the standard. This is why Markman was violated.
Events at trial demonstrated the substantial
dangers associated with allowing a jury construe

5
patent claims. Both asserted patents were declared
standard essential through a self-serving, uncontested
interaction between Respondent and a third party.
To be fair, these patents do contain some claim
limitations that overlap with supposed “mandatory”
provisions in the 3GPP LTE standard specification.
But it became apparent during litigation—when the
patents at issue were contested and under stricter
scrutiny—that there were significant differences
between the asserted patents and the LTE standard
(i.e., the patent claims had features not present in the
LTE standard). In the ’239 patent, for example, the
underlying independent claim recites an additional
requirement involving a second set of conditional
checks that is nowhere in the LTE standard.
Appellants’ Br. 21, 34-39. For the ’538 patent, the
evidence showed that the products did not practice the
LTE standard in the way described by the claims—
instead, the accused products achieved a similar result
in a different way. Appellants’ Br. 39-47. TCL argued
these points at trial, and Respondent is wrong to argue
that TCL failed to do so. Br. in Opp. 17.
Because neither the district court nor Federal
Circuit determined whether the claims are fully subsumed within the industry standard, claim construction was never appropriately performed. Respondent
blames TCL for this lapse (Br. in Opp. 15), but it is
Respondent who has the burden of proof on infringement and who developed the infringement theory at
issue here. Indeed, plaintiffs submitted their infringement contentions in this case well before the claim
construction phase began, and it has no one to
blame but itself for failing to argue that the claims
cover every possible implementation of the industry
standard and for failing to ask the district court to
make this finding.

6
B. The Reasoning in Markman Applies with
Equal Force to this Case and Justifies
Overturning the Federal Circuit’s Error
Respondent argues that policy arguments do not
support review of this case. Respondent ignores,
however, that the most important policy arguments
relating to this Petition—i.e., those described in
Markman—strongly favor review. In Markman, this
Court explained why it committed the claim construction issue to the discretion of the district court
(and not the jury). It started by following its past
precedent in Bischoff v. Wethered, 76 U.S. 812 (1870),
where “the Court drew a line between issues of document interpretation and product identification, and
held that expert testimony was properly presented to
the jury on the latter, ultimate issue.” Markman, 517
U.S. at 386. Informed by Bischoff, this Court drew the
same line in Markman, committing claim construction
to the district court but letting the ultimate issue of
infringement go to the jury. Id. at 391.
In doing so, the Court unambiguously stated that
“[t]he construction of written instruments is one of
those things that judges often do and are likely to
do better than jurors unburdened by training in
exegesis.” Markman, 517 U.S. at 388. Further, “there
is no reason to weigh the respective strengths of judge
and jury differently in relation to the modern claim;
quite the contrary, for the claims of patents have
become highly technical in many respects as the result
of special doctrines relating to the proper form and
scope of claims that have been developed by the courts
and the patent Office.” Id. at 388-89 (citation and
quotations omitted). Here, Respondent makes the
same type of argument that the Court rejected in
Markman: i.e., the jury is better suited than the

7
judge to make a credibility judgment. The Court
in Markman rejected this argument because “any
credibility determinations will be subsumed within
the necessarily sophisticated analysis of the whole
document, required by the standard construction rule
that a term can be defined only in a way that comports
with the instrument as a whole.” Id. at 389 (citations
omitted).
The Court explained that a jury’s ability to assess
the credibility of a witness’s demeanor is “much less
significant” when compared to the aptitude of a judge,
who has “a trained ability to evaluate the testimony in
relation to the overall structure of the patent” and can
“ascertain whether an expert’s proposed definition
fully comports with the specification and claims and so
will preserve the patent’s internal coherence.” Id. at
389-90. Accordingly, this Court found that there was
“sufficient reason to treat construction of terms of art
like many other responsibilities we cede to a judge
in the normal course of trial, notwithstanding its
evidentiary underpinnings.” Id. at 390.
Next, the Court in Markman recognized the
“importance of uniformity in the treatment of a given
patent as an independent reason to allocate issues
of construction to the court.” Id. at 390. The Court
determined that “[u]niformity would, however, be ill
served by submitting issues of document construction
to juries.” Id. at 391.
All of the policies described above from Markman
apply with equal force here. Determining whether
patent claims are coextensive with an industry
standard necessarily involves analyzing a contract
(e.g., a patent) and interpreting technical terms of art
(in both the patent and the LTE standard). Such an
analysis—by its very nature—is the same type of

8
analysis that this Court committed to district court’s
discretion in Markman. If juries are allowed to perform this analysis, the uniformity described above will
be compromised, and there will be a severe risk that a
jury’s lack of expertise with interpreting legal and
technical terms will result in scenarios where patent
claims are found coextensive with a standard when
they are not and vice versa. These concerns are
magnified by the fact that there are tens of thousands
of patents alleged to be standard essential. The
holding of Markman, and the reasons for that holding,
apply here and provide a sound basis for granting
review.
C. The Conflict Between the Federal Circuit’s
Decision and Supreme Court Precedent
Should Be Resolved by this Court
Respondent acknowledges the Federal Circuit’s
Fujitsu decision held that an accused product can
operate according to an accused product “if the
asserted claims cover[] every possible implementation
of [that] standard.” Br. in Opp. 13 (citing Fujitsu Ltd.
v. Netgear Inc., 620 F.3d 1321, 1327 (Fed. Cir. 2010)).
Determining whether patent claims are coextensive
with an industry standard requires claim construction
by a court because “in many instances, an industry
standard does not provide the level of specificity
required to establish that practicing that standard
would always result in infringement.” Fujitsu, 620
F.3d at 1327-28. Moreover, a standard may include
optional sections that need not be implemented by the
devices on the network, in which case standards
compliance does not automatically mean infringement. Id. Such was the case in Fujitsu, where the
Federal Circuit affirmed a district court finding that
certain sections of a standard were optional and thus

9
standards-compliance did not prove infringement.
Id. at 1328. For reasons such as these, a thorough
analysis comparing the claims to the standard is
necessary to determine whether the claims and standard are coextensive, and whether the relevant standard section is optional. This analysis at its core invokes
ascertaining the meaning and scope of the patent
claims, which is why it must be performed by a court
and not a jury. In this case, neither the district court
nor Federal Circuit determined whether the asserted
claims cover every possible implementation of the
industry standard or whether the relevant sections of
the LTE standard were optional. The jury performed
this analysis, which is the violation that needs
correcting.
Respondent cites to “long-standing Federal Circuit
precedent,” but the cited precedent is inapposite. The
Federal Circuit’s decision in Dynacore Holdings Corp.
v. U.S. Philips Corp., 363 F.3d 1263 (Fed. Cir. 2004),
simply explained that, “[the trier of fact] must compare the properly construed claims to the allegedly
infringing device.” Id. at 1273 (citing Cybor Corp. v.
FAS Techs., Inc., 138 F.3d 1448, 1454 (Fed. Cir. 1998)
(en banc)). TCL does not dispute that the trier of fact
can compare the patent claims—once construed—to
the accused product. TCL does dispute, however, that
the jury can also perform the preliminary step of
determining whether the relevant standard was coextensive with the patent claims. Notably, the district
court made this determination in Dynacore, just as
Markman requires, at the summary judgment stage.
Dynacore, 363 F.3d at 1267-68. Additionally, the
Federal Circuit in Dynacore affirmed that the claims
did not cover each implementation of the standard. Id.
This is the exact issue TCL raised in its post-trial

10
briefing—i.e., the asserted patents contain limitations
that are not covered by the LTE standard.
The Fujitsu case is another case where the district
court, and not the trier of fact, considered whether
the asserted patents covered each implementation of
the industry standard. Fujitsu, 620 F.3d at 1327-28.
Where a standard includes optional sections, the
Fujitsu court determined that “standards compliance
alone would not establish that the accused infringer
chooses to implement the optional section.” Id. The
Fujitsu court found that certain sections of a standard
were optional and thus standards-compliance did not
prove infringement. Id., at 1328. Only through a
thorough analysis comparing the claims to the standard can one determine whether the claims and
standard are coextensive, and whether the relevant
standard section is optional. This analysis is properly
undertaken by a court and not a jury because it necessarily requires the court to ascertain the scope of the
claims and whether they cover mandatory or optional
portions of the standard. This determination cannot be
entrusted to a jury because, as discussed in Section B,
the jury is ill-equipped to make a determination of
whether the claims cover every implementation of a
standard.
Here, the Federal Circuit deviated from its holdings
in Dynacore and Fujitsu, leaving the jury to determine
whether the standard is coextensive with the patent
claims. No court determined whether the ’239 and ’538
patents cover every possible implementation of the
LTE standard, or whether the relevant sections of the
LTE standard are mandatory, and Respondent was
allowed to present this question directly to the jury.
This result contravenes prior Federal Circuit precedent, as well as this Court’s precedent.

11
This case presents a new and important question
that this Court has not addressed: whether standardcompliance alone may be relied on for an infringement
theory when a court has not determined whether
the industry standard covers each patented claim
feature. At the root of this issue is a claim construction
determination regarding whether the patent claims
align with the industry standard. This case presents
an exemplary vehicle for addressing this significant
question. The rise in the number of standard essential
patents demonstrates the importance of a decision on
this issue crucial to prevent continued circumvention
of this Court’s Markman decision. Pet. 18.
CONCLUSION
For the above reasons, and in view of the importance
of the questions presented herein, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
LIONEL M. LAVENUE
Counsel of Record
FINNEGAN, HENDERSON, FARABOW,
GARRETT & DUNNER, LLP
1875 Explorer Street
Suite 800
Reston, VA 20190
(571) 203-2750
Lionel.lavenue@finnegan.com
Counsel for Petitioners
June 18, 2021

